<html>
<title> - VARIOUS MEASURES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                           VARIOUS MEASURES

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   ON

              H.R. 1164, H.R. 1415, H.R. 2712, H.R. 3542,
           H.R. 3776, H. Res. 336, H. Res. 401, H. Res. 407,
                          and H. Con. Res. 90

                               __________

                           NOVEMBER 15, 2017

                               __________

                           Serial No. 115-79

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                              

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-551PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="95f2e5fad5f6e0e6e1fdf0f9e5bbf6faf8bb">[email&#160;protected]</a>                                  
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
Vacant<greek-l>As of 10/24/17 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP ON

H.R. 1164, To condition assistance to the West Bank and Gaza on 
  steps by the Palestinian Authority to end violence and 
  terrorism against Israeli citizens.............................     2
  An amendment in the nature of a substitute to H.R. 1164 offered 
    by the Honorable Edward R. Royce, a Representative in 
    Congress from the State of California, and chairman, 
    Committee on Foreign Affairs.................................     5
      An amendment to the amendment in the nature of a substitute 
        to H.R. 1164 offered by the Honorable Gerald E. Connolly, 
        a Representative in Congress from the Commonwealth of 
        Virginia.................................................    16
      An amendment to the amendment in the nature of a substitute 
        to H.R. 1164 offered by the Honorable David Cicilline, a 
        Representative in Congress from the State of Rhode Island    17
H.R. 1415, To facilitate effective research on and treatment of 
  neglected tropical diseases, including Ebola, through 
  coordinated domestic and international efforts.................    18
  An amendment to H.R. 1415 offered by the Honorable Christopher 
    H. Smith, a Representative in Congress from the State of New 
    Jersey.......................................................    41
  An amendment to the Smith amendment to H.R. 1415 offered by the 
    Honorable Adriano Espaillat, a Representative in Congress 
    from the State of New York...................................    49
H.R. 2712, To impose sanctions with respect to foreign support 
  for Palestinian terrorism, and for other purposes..............    50
  An amendment to H.R. 2712 offered by the Honorable Ron 
    DeSantis, a Representative in Congress from the State of 
    Florida......................................................    77
  An amendment to H.R. 2712 offered by the Honorable Bradley S. 
    Schneider, a Representative in Congress from the State of 
    Illinois.....................................................    79
  An amendment to H.R. 2712 offered by the Honorable Daniel 
    Donovan, a Representative in Congress from the State of New 
    York.........................................................    80
H.R. 3542, To impose sanctions against Hamas for gross violations 
  of internationally recognized human rights by reason of the use 
  of civilians as human shields, and for other purposes..........    83
  An amendment to H.R. 3542 offered by the Honorable Bradley S. 
    Schneider....................................................    93
H.R. 3776, To support United States international cyber 
  diplomacy, and for other purposes..............................    94
  An amendment in the nature of a substitute to H.R. 3776 offered 
    by the Honorable Edward R. Royce.............................   117
      An amendment to the amendment in the nature of a substitute 
        to H.R. 3776 offered by the Honorable Bradley S. 
        Schneider................................................   139
      An amendment to the amendment in the nature of a substitute 
        to H.R. 3776 offered by the Honorable Joaquin Castro, a 
        Representative in Congress from the State of Texas.......   140
      An amendment to the amendment in the nature of a substitute 
        to H.R. 3776 offered by the Honorable Michael T. McCaul, 
        a Representative in Congress from the State of Texas.....   141
H. Res. 336, Reaffirming a strong commitment to the United 
  States-Mexico Partnership......................................   142
H. Res. 401, Urging China, South Korea, Vietnam, Thailand, the 
  Philippines, Indonesia, Cambodia, Laos, India, and all nations 
  to outlaw the dog and cat meat trade and to enforce existing 
  laws against the trade.........................................   146
  An amendment in the nature of a substitute to H. Res. 401 
    offered by the Honorable Edward R. Royce.....................   152
H. Res. 407, Condemning the persecution of Christians around the 
  world..........................................................   156
  An amendment in the nature of a substitute to H. Res. 407 
    offered by the Honorable Edward R. Royce.....................   161
H. Con. Res. 90, Condemning ethnic cleansing of the Rohingya and 
  calling for an end to the attacks in and an immediate 
  restoration of humanitarian access to the state of Rakhine in 
  Burma..........................................................   166
  An amendment in the nature of a substitute to H. Con. Res. 90 
    offered by the Honorable Eliot L. Engel, a Representative in 
    Congress from the State of New York..........................   170

                                APPENDIX

Markup notice....................................................   202
Markup minutes...................................................   203
Markup summary...................................................   205
The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida: Prepared statement..................   207
The Honorable Gerald E. Connolly: Prepared statement.............   209

 
                            VARIOUS MEASURES

                              ----------                              


                      WEDNESDAY, NOVEMBER 15, 2017

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:10 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. The committee will come to order. We will 
ask the members here to take their seats.
    Pursuant to notice, we meet today to mark up several 
bipartisan measures.
    Without objection, all members may have 5 days to submit 
statements or extraneous materials on today's business.
    And, having confirmed that there are not contested 
amendments beyond the bipartisan amendments circulated to all 
offices yesterday, the ranking member and I intend to consider 
today's measures en bloc. And so, without objection, the 
following items previously provided to members and also in your 
packets are going to be considered en bloc and are considered 
as read.
    They are: H.R. 1164, the Taylor Force Act, Royce amendment 
3 in the nature of a substitute, Connolly amendment 1, and 
Cicilline amendment 105; H.R. 1415, the End Neglected Tropical 
Diseases Act, with Smith amendment 58 and Espaillat amendment 
66; H.R. 2712, the Palestinian International Terrorism Support 
Prevention Act of 2017, with the DeSantis amendment 61 and the 
Schneider amendment 53 and Donovan amendment 32; we have H.R. 
3542, the Hamas Human Shields Prevention Act, with the 
Schneider amendment 52; H.R. 3776, the Cyber Diplomacy Act of 
2017, with Royce amendment 76 in the nature of a substitute, 
Schneider amendment 51, Castro amendment 59, and McCaul 
amendment 75; House Resolution 336, Reaffirming a Strong 
Commitment to the United States-Mexico Partnership; House 
Resolution 401, Urging All Nations to Outlaw the Dog and Cat 
Meat Trade, with the Royce amendment 79 in the nature of a 
substitute to House Resolution 401; House Resolution 407, 
Condemning the Persecution of Christians Around the World, 
Royce amendment 80 in the nature of a substitute; and House 
Concurrent Resolution 90, Condemning the Ethnic Cleansing of 
the Rohingya in Burma, and the Engel amendment 64 in the nature 
of a substitute to House Concurrent Resolution 90.
    [The information referred to follows:]<greek-l>H.R. 
1164 deg.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Chairman Royce. I now recognize myself to speak on today's 
business.
    Today, we consider the Taylor Force Act. And let me start 
by thanking Congressman Doug Lamborn over here in the front row 
and Congressman Lee Zeldin for their leadership on this 
important legislation. And I also want to thank our ranking 
member, Eliot Engel, for collaborating with me on this 
bipartisan text that we are taking up today.
    This bill is named in honor of a courageous and patriotic 
young American, Taylor Force, whose life was tragically cut 
short when he was murdered by a Palestinian terrorist. He was 
murdered in Israel. Since 2003, it has been Palestinian law to 
reward Palestinian prisoners in Israeli jails with a monthly 
paycheck. Palestinian leadership also pays the families of 
Palestinian prisoners and suicide bombers.
    These policies incentivize terrorism. With this 
legislation, we are forcing the PA to choose between U.S. 
assistance and these morally reprehensible policies. And I am 
pleased to see this measure move forward in both Chambers with 
so much support.
    We also consider two measures targeting the dangerous 
Iranian proxy, Hamas. And I want to thank Congressman Mast for 
his leadership on H.R. 2712. This is the Palestinian 
International Terrorism Support Prevention Act.
    Iran and Hezbollah are clearly working to extend their 
influence over Hamas and Palestinian Islamic Jihad in the Gaza 
Strip through increased financial and military aid. It is 
precisely Iranian support that has enabled Hamas to maintain 
power in the Gaza Strip for the past decade. Iran is also why 
Hamas and Palestinian Islamic Jihad have thousands of missiles 
and rockets and continue digging tunnels. And those tunnels are 
for terror. We were recently in one of those tunnels. One that 
Eliot Engel and I were in came up underneath an elementary 
school. And these are on the border with Israel.
    While we work to address Iran's support for Hamas, we must 
also ensure U.S. partners in the region do not host or aid 
Hamas terrorists. And, to that end, this bill has already had 
an effect. When the bill was introduced, Qatar was hosting 
senior Hamas terrorist Saleh al-Arouri after he was expelled in 
2016 from Turkey. Two weeks after this legislation was 
introduced, he, along with other Hamas terrorists, were 
expelled from Qatar.
    I want to thank Congressman Joe Wilson for authoring H.R. 
3542, the Hamas Human Shields Prevention Act. Hamas not only 
regards Israeli civilians--not only targets them with 
kidnapping, but it also carries out indiscriminate rocket 
attacks. The terrorist group also shows a callous disregard for 
the lives of Palestinians it supposedly represents by using 
them as human shields during times of conflict in direct 
violation of international law. This legislation holds Hamas 
and its sponsor, Iran, accountable for this monstrous practice.
    Next, we have H.R. 3776. This is the Cyber Diplomacy Act, 
which establishes U.S.-international cyberspace policy. The 
U.S. is increasingly under attack by foreign actors, and these 
actors are online. Now, more than ever, we need a high-ranking 
cyber diplomat at the State Department to prioritize these 
efforts and to work with foreign governments. This bipartisan 
bill will help counter foreign threats on the internet, and it 
is also going to help promote human rights abroad and will 
create new jobs, new economic growth, here at home.
    We consider H.R. 1415, the End Neglected Tropical Diseases 
Act, which seeks to improve the effectiveness of USAID's 
existing program to treat, control, and eliminate neglected 
tropical diseases. These diseases impact over 1 billion people 
worldwide, including many here at home. And I want to thank Mr. 
Smith for his work on this important bill.
    Next, we will consider House Concurrent Resolution 90, 
which condemns the ethnic cleansing of the Muslim Rohingya in 
Burma. In recent months, we have seen the horrific stories of 
young mothers torn from their burning homes, drowned children, 
mass executions. Many consider the Rohingya the most persecuted 
minority on Earth. Importantly, this resolution builds on our 
recent hearing by not only calling for an end to all violence 
but also for the military and Government of Burma to allow 
refugees to return back to their homes. And I thank Congressman 
Crowley, and I thank Ranking Member Engel for their good work 
on this measure.
    Our members have long advocated for the religious freedom 
of all minorities, and today, we consider another measure to 
further this important work. House Resolution 407 highlights 
the persecution of Christian communities around the globe. 
Christians, in a number of countries, face oppression, assault, 
imprisonment, torture, death for their faith. This resolution 
reaffirms the U.S. commitment to combat violations of religious 
freedom wherever they occur and calls on all countries to end 
the persecution of Christians, whether such persecution is 
State-sponsored or incited by local factions or part of a 
deliberate campaign, like terrorist organizations, such as Boko 
Haram and the Islamic State.
    House Resolution 336 reaffirms Congress' commitment to the 
U.S.-Mexico partnership. There is bipartisan recognition that 
we need to continue working with Mexico in areas ranging from 
security cooperation to economic collaboration to promoting 
shared democratic values and principles. And as we grapple with 
the deadly opioid crisis, it is critical that the U.S.-Mexico 
partnership remains strong so that we can confront the 
transnational criminal organizations that terrorize Mexico and 
that poison America's youth. I thank Ranking Member Engel, and 
I thank Chairman McCaul for their work on this measure.
    And, finally, we have House Resolution 401. Protecting the 
world's animals has been one of the priorities for this 
committee, and I am proud to have sponsored legislation to this 
end. Today, we continue that work with House Resolution 401. 
This was authored by Representative Hastings. It has tremendous 
bipartisan support. It has over 100 cosponsors. The consumption 
of dog meat has occurred in every corner of the world, and 
established dog meat markets still exist in Asia, which 
presents serious animal cruelty and public health concerns. The 
resolution urges all nations now to abolish the dog and cat 
meat trade and to enforce the existing laws against such trade.
    I now recognize the ranking member for his remarks.
    Mr. Engel. Mr. Chairman, thank you for calling this markup. 
We are taking up a number of good measures, and I am glad to 
support them all.
    I will start with the resolution I authored with Mr. McCaul 
of Texas underscoring the importance of a U.S.-Mexico 
partnership based on mutual respect. We have seen many highs 
and lows in this bilateral relationship over the last century. 
In recent years, things have been headed in the right 
direction, closer ties on a range of issues from security to 
economic cooperation. But, in my view, things have gotten off 
track. I worry that we are going to squander the good progress 
we have made unless we change course.
    Mexico is an important partner. It is a partnership we want 
to see thrive. This measure puts us on record reiterating just 
how important this relationship is. I am grateful to you, Mr. 
Chairman, for bringing it up today, and I ask all members to 
support it.
    And now I will turn to three measures dealing with Israel's 
security. The first is a measure designed to push the 
Palestinian Authority to stop the so-called martyr payments 
which incentivize terrorist activity. We have had a lot of 
debate in Congress about the right way to do that. I believe 
the approach we are taking today strikes just the right 
balance. I was glad to work with Chairman Royce to ensure this 
legislation would not have unintended consequences, such as 
targeting humanitarian and democracy assistance or security 
cooperation. And the chairman and I worked very closely 
together to come out with a really good bill.
    And we have two measures aimed at curbing the violence of 
the terrorist group Hamas, which is a threat to Israel's 
citizens and security across the region. I also want to thank 
Representatives Wilson and Moulton for their leadership in 
authorizing the Hamas Human Shields Prevention Act. The use of 
human shields is a disgusting and cowardly practice, and it 
will never lead to peace. This bill would use new sanctions to 
crack down on anyone supporting or taking part in this horrific 
practice.
    Moving on, I am glad to support the Palestinian 
International Terrorism Support Prevention Act from 
Representatives Mast and Gottheimer. This bill is intended to 
send a message to foreign governments that they ought to stop 
funding Hamas. Once they have stopped funding Hamas, we will 
maintain pressure to keep it that way. But this bill is not the 
United States taking sides in the Gulf conflict. My vote for 
this legislation today is not a vote of approval of any actions 
that pit one side against another. The breakdown in 
relationships in the Gulf has not been in our interest, and I 
would urge all parties to come together and resolve their 
differences.
    Next, as the Rohingya crisis continues to rage, I want to 
thank the chairman for his sustained focus on this tragedy. We 
continue to see reports of Rohingya refugees fleeing to 
Bangladesh and widespread hunger and malnutrition for those who 
are left behind. Both Chairman Royce and I believe that what is 
occurring in Burma's Rakhine State is ethnic cleansing 
perpetrated by the military and a direct failure of the Burmese 
Government to protect its people. This resolution calls for the 
reimposition of targeted sanctions against those responsible 
for this violence. It is what we should be doing. And, along 
with the chairman, I will continue to press this issue.
    I am also glad to join the chairman to cosponsor the Cyber 
Diplomacy Act of 2017. In recent years, malicious cyber 
activity has become a greater threat to the United States and 
our allies, most notably with Russia's illegal interference in 
our election last year. We cannot allow foreign governments to 
meddle in democracy or conduct cyber attacks against us and our 
allies. This measure would help the United States shape 
international cyber norms, ramp up coordination with our allies 
to stiffen cyber defenses, and coordinate responses to future 
malicious activity.
    This bill also calls for maintaining the Office for Cyber 
Issues at the State Department. Now, more than ever, we need 
high-ranking cyber diplomacy to prioritize these efforts and 
ensure we keep the internet open, reliable, unfettered, and 
secure. The fact that the State Department has not yet filled 
so many important vacancies is a constant irritant to me. And 
this is just another example of that. And I would urge the 
President and the Secretary of State to fill these senior 
vacancies as soon as possible.
    I would like to also thank Chairman Royce for working with 
me on his amendment to Mr. Grothman's measure condemning the 
persecution of Christians around the world. Freedom of worship 
is a basic human right, yet we see religious minorities all 
over the world subjected to violence and persecution. It is 
unacceptable for anyone to suffer because of how or even if 
they choose to worship. We must speak out against such 
injustices or any other assault on the universal freedom of 
press, rights to organize, or LGBT equality. This is a very 
important bill about the persecution of Christians around the 
world.
    I am also pleased to support Mr. Smith's bill, the End 
Neglected Tropical Diseases Act. So-called neglected tropical 
diseases take a particularly high toll on poor populations in 
developing countries. Some of these diseases cause blindness, 
stunted growth, and cognitive disabilities which can stifle 
progress and prosperity in affected countries. That is why a 
decade ago President Bush launched the Neglected Tropical 
Diseases program at USAID, and the Obama administration carried 
his work forward. Mr. Smith's bill would make sure our existing 
efforts are working as efficiently as possible. Unfortunately, 
the President has called for a 25-percent cut to this USAID 
program. I think that would be a colossal mistake. We cannot 
hope to defeat neglected tropical diseases or advance our 
global health priorities if we fail to keep investing in those 
areas and recognize the opportunities we have for collaboration 
across our programs.
    And, lastly, I am pleased to support Mr. Hasting's 
resolution. The measure condemns the cruel practices 
surrounding the dog and cat meat trade in many parts of Asia 
and calls for an end to such practices.
    Once again, I thank all our members for their efforts on 
these pieces of legislation and to the chairman for his 
leadership. And I yield back.
    Chairman Royce. Thank you, Mr. Engel.
    We go to Ileana Ros-Lehtinen from Florida.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman, and 
thank you to Ranking Member Engel for bringing forth these 
important measures. Regarding the Palestinian Authority, I 
would like to remind this committee that the administration 
already has the tools it needs to withhold U.S. assistance to 
the Palestinian Authority and the West Bank in Gaza. In fact, 
every 6 months, the administration sends to this committee a 
report that finds that the PA and the PLO are not living up to 
statutorily required commitments. That report is accompanied by 
a sanction to downgrade the status of the PLO office in DC, 
which is then, sadly, immediately waived.
    So what is the benefit? What does the U.S. get? Or, worse, 
what does that tell the Palestinian leadership? It shows that 
there is no willingness by the United States to hold them 
accountable for their support for violence or terror or other 
horrid acts, and the cycle continues. So here we are today 
looking to add more tools to the toolbox.
    The Palestinian Authority, the PLO, Abu Mazen, and Hamas, 
they should all be held accountable for their acts of terror. 
The entire committee agrees: End their support for terror. They 
should not be rewarded.
    And that is why the Taylor Force Act, though I believe that 
we should not allow for exceptions and carve-outs in this 
legislation, should be supported because that flexibility will 
be used, once again, to circumvent the spirit of the law and 
congressional intent.
    The fact that the Palestinian leadership rewards terrorists 
and their families is sickening. But what is worse is that the 
thought that the American taxpayer may be inadvertently 
supporting this. Every dollar we spend in the West Bank and 
Gaza, every time we pay off the Palestinian debt to Israel, we 
are freeing up the Palestinian leadership to allocate money for 
its pay-to-slay program. Because money is fungible, we should 
not allocate one cent in the West Bank and Gaza until we know 
that Abu Mazen no longer pays money to terrorists and their 
families. I have no doubt that, given the choice between badly 
needed infrastructure projects or paying terrorists, that Abu 
Mazen will forsake the Palestinian people to pay terrorists. 
Pay-to-slay. That is his program. But let that be his decision 
to make. Don't let us make it easy for him to do both. And so I 
support the Taylor Force Act.
    And in that same vein, Mr. Chairman, I fully support the 
bill of my colleague from Florida, Mr. Mast, the Palestinian 
International Terrorism Support Act. Hamas is a terror 
organization responsible for countless attacks against Israel 
but also responsible for the deaths of at least 25 U.S. 
citizens. It is also a beneficiary of Turkey, of Iran, of 
Qatar, not exactly the confederacy of morality. Qatar has 
pledged nearly $1.5 billion over the past 5 years for 
reconstruction efforts in Gaza. And if you think that Hamas 
hasn't delivered a good portion of this for its own use or 
benefit and that Qatar doesn't know about that diversion, then 
I have a bridge from Miami to Havana to sell you.
    So, thank you, Mr. Chairman. Obviously, I don't have much 
of a voice today. I support all of the bills, and I will give 
my remarks for the record. Thank you. I yield back.
    Chairman Royce. Thank you very much, Ileana, for making 
those points.
    Jerry Connolly of Virginia.
    Mr. Connolly. Thank you, Mr. Chairman. And I want to thank 
you and your staff, as well as the ranking member and his 
staff, for cooperating with us on a humanitarian carve-out, 
which has to do with vaccinations, which is why I am wearing my 
Save the Children tie today. You know, infectious disease does 
not respect the border. And outbreaks of infectious diseases 
damage, of course, innocent lives, children, and can cross that 
border. And so we wanted to make sure that was addressed.
    We also want to take care, as the ranking member indicated, 
that we don't unwittingly destabilize a situation in decisions 
we make about what support we do or do not provide the 
Palestinian Authority. But I have always had a rule in 
politics. I will not defend the indefensible. The bill before 
us today calls out the indefensible. We simply cannot sit by 
and watch the Palestinian Authority reward abhorrent behavior, 
suicide bombers and terrorist perpetrators, by providing 
payments to their families. That both rewards the behavior that 
we find indefensible and encourages it. It must stop. And to 
get the attention of the Palestinian Authority, we have this 
bill before us today, and I will support it.
    And so I hope that the action we take today will lead to 
the desired outcome, which is the secession of this abhorrent 
practice that affects both the Israeli people and the 
Palestinian people. It is, I think, an essential ingredient if 
we are going to proceed with any kind of two-state solution and 
the peace process. And so I am glad for the legislation before 
us. I want to thank the chairman and the ranking member for the 
thoughtful way in which they have made changes to the bill that 
take into account the reality on the ground and the long-term 
repercussions of actions we take today.
    And I yield back.
    Chairman Royce. Thank you, Mr. Connolly. Thank you very 
much.
    I want to go now to Mr. Chris Smith.
    Mr. Smith. Thank you very much, Mr. Chairman, for bringing 
all of these very important bills before the committee. I am 
especially grateful that H.R. 1415, the End Neglected Tropical 
Diseases Act, is under consideration. We passed it out of this 
committee last Congress. Regrettably, Title II, which is also a 
Title II in this bill, never got out of Energy and Commerce or 
Financial Services. We are going to make an all-out effort 
again there.
    Just in brief, H.R. 1415 is a comprehensive bill to combat 
a group of 17 parasitic, bacterial, and viruses which blind, 
disable, disfigure, and kill victims from among 1.4 billion 
people worldwide, especially in the poorest of poor countries. 
These include dengue fever, round-, whip-, and hookworm, and 
schistosomiasis, which are parasitic flatworms. About \1/4\ 
million people, up to 250 million people, carry this horrific 
disease inside of their intestines. It disproportionately 
affects children. The World Health Organization says that there 
are 78 endemic countries. And for a very low-cost commitment, 
these worms and these other parasites and diseases can be 
mitigated and even abolished.
    I would point out to my colleagues and Mr. Engel, he is 
right: The Trump budget would have cut by about 25 percent our 
neglected tropical diseases budget. But so did Obama. Every 
year, he offered to cut it by 20 percent and I and others made 
a beeline to the appropriators each and every year and said, 
minimally, let's straight line it at $100 million for that 
program, which we got, which is in the current bill that is 
pending in the House and the Senate for appropriations. But it 
is not enough.
    This bill talks about strategy. Title II of this 
legislation will make a huge difference domestically and 
internationally. And it is not under consideration here. But 
just for the sake of the members, I hope that we can ask Energy 
and Commerce to mark it up this year. It creates centers of 
excellence to study this. Back in the year 2000, I wrote the 
laws on combatting autism. The mainstay of that legislation 
were centers of excellence. And that is where we learned, both 
in CBC and at the NIH, what to do, what the prevalence is, and, 
again, best strategies going forward.
    We also have an important panel, an expert panel, a blue 
ribbon panel, that will be established to study worm 
infections. I mean, we talk about feeding the future. And, as 
you know, we did the Global Food Security Act last year. Food 
and hunger and mitigation of hunger is an overwhelming 
priority, bipartisan, in Congress and really among many 
countries around the world. We don't want to feed the worms and 
have a situation where children's morbidity rate is very high. 
It often doesn't kill; although it does. But coinfections, 
opportunistic infections, take advantage of diminished immune 
systems and these kids succumb to other diseases because they 
are walking around with bloated bellies because they are 
carrying around worms. So this is an all-in type of effort to 
say we can end neglected tropical diseases. And we need better 
strategy. We need resources. And I do strongly urge members to 
support it.
    I want to thank Mr. Meeks, the prime Democratic cosponsor, 
and Karen Bass, the ranking member of our subcommittee. Other 
members who have joined on as cosponsors, I thank you. But this 
is a bill whose time has come. And I thank you, Chairman, for 
bringing it to the committee today.
    On all the others, I would ask unanimous consent to revise 
and extend.
    Just briefly on the Christian persecution issue: There is 
no other group on the face of the Earth that are being 
discriminated against, killed, forced to convert to other 
faiths than Christians, whether it be in China, North Korea, or 
many parts in the Middle East. As you all know, we passed 
legislation, H.R. 390, pending over on the Senate side, to help 
the Christians who are the subject of genocide by ISIS. But a 
man named Adamu stood right where the staff is sitting right 
now and told how he was forced by Boko Haram out of his house 
with an AK-47 put to his head. And he was told, ``You convert 
right now to Islam,'' by a Boko Haram terrorist, ``or I am 
going to blow your brains out.'' And the man said, ``Are you 
ready to die for your faith?'' He said, ``Yes, I am.'' He 
pulled the trigger, and he blew his face away. And when he told 
that story in this room--and I met him in an IDP camp in Jos, 
Nigeria--you could have heard a pin drop.
    That is the everyday experience of Christians around the 
world, including in India, including in North Korea, 
especially, and in the People's Republic of China, where, 
systematically, Xi Jinping is trying to eviscerate all faiths, 
including the Falun Gong, which Ileana Ros-Lehtinen has led so 
nobly on, but also the Christians and probably more so. 
Arguably, there are more Christians in China than anywhere else 
in the world. They are underground, and they are repressed. 
This is a great resolution, and I commend my friend for 
offering it.
    Chairman Royce. Thank you, Mr. Smith.
    Ted Deutch of Florida.
    Mr. Deutch. Thank you, Chairman Royce and Ranking Member 
Engel.
    The measures before us address a range of crucial foreign 
policy challenges, taking steps to support the U.S.-Mexico 
relationship, fight tropical diseases, combat cruelty against 
animals in Southeast Asia, strengthen cyberspace policy, 
condemn the persecution of Christians, protect the Rohingya 
Muslims in Burma, and support Israel in the face of persistent 
terrorism, and I am supportive of all of them.
    I want to thank the chair and ranking member for their 
tireless work, especially to bring forward this improved Taylor 
Force Act. This bill will help end the horrible practice where 
Palestinian Authority pays salaries to terrorists and their 
families, more money for worse crimes, unambiguously 
incentivizing terrorism against civilians.
    Beginning in late 2015, Israel faced a new wave of violence 
where it was often called lone wolf or knife intifada. Instead 
of coordinating near daily bombings in cafes, nightclubs, and 
on public buses as happened earlier in the 2000s, we instead 
saw deadly stabbings, shootings, and car rammings on a regular 
basis in which dozens of Israelis, and even Americans, were 
killed. And that included American students Taylor Force and 
Ezra Schwartz. On March 8, 2016, Taylor Force, a 28-year-old 
West Point graduate and Vanderbilt graduate student who had 
fought in Iraq and Afghanistan was stabbed to death on the 
promenade in Jaffa by a young Palestinian terrorist who injured 
10 others, including a pregnant woman.
    Taylor, by all accounts, was loved. He was humble. He 
enjoyed playing the guitar. He was an Eagle Scout and Army 
veteran. His dad described him as an all-American kid who made 
sure that everyone around him felt good. A friend of his in 
Nashville said simply: He made people better.
    A few months earlier, another American was killed while 
visiting Israel on a gap year before starting university the 
next year. Ezra Schwartz was sitting in traffic at the Gush 
Etzion Junction on his way to volunteer at a conservation park 
built in memory of the three teenagers who had been kidnapped 
and killed by Hamas in June 2014. A terrorist opened fire with 
a submachine gun, killing Ezra, as well as an Israeli teacher 
and a Palestinian from Hebron. But rather than work to punish 
this horrific terror, current Palestinian law instead 
incentivizes it.
    The terrorist who murdered Taylor Force and who was killed 
by Israeli police responding to the scene, his family will now 
receive payments for life at an amount three times the average 
annual salary in the West Bank. And the terrorist who killed 
Ezra Schwartz, who is now in Israeli prison, he will get paid 
more than $3,000 a month, many times higher than the average 
Palestinian worker. Under this payment program, the Palestinian 
Authority has given more than $1 billion to convicted 
terrorists over the past decade, more than $300 million per 
year. The law includes a well-defined sliding scale where the 
more serious the act of terrorism, the longer the prison 
sentence, and, consequently, the higher the salary. So, if you 
are sentenced to life in prison for a horrific terror attack, 
you get four times more money per month than if you are 
sentenced to just a couple of years in prison for a lesser 
attack.
    Now, it is the job of government to deliver services to its 
people, including welfare to those who need it most, which 
would include giving a grieving widow who suddenly has to take 
care of her family without the breadwinner what she needs. But 
it sends a powerful message to know that if a Palestinian man 
dies in a car accident, that his family gets nothing; but if 
that same man were to drive his car deliberately into Israeli 
citizens, civilians, his family will be taken care of for life. 
That is not welfare; that is incentive to terror. It is pay-
for-slay, and it must end.
    This piece of legislation has been carefully written in 
order to target only those funds that directly benefit the 
Palestinian Authority, thereby creating real incentives for the 
PA to meaningfully end this practice. I congratulate the 
chairman and the ranking member for crafting today's amended 
language in a way that will pressure the PA to stop this 
practice without damaging our vital investments in humanitarian 
assistance and grassroots people-to-people programs that are 
essential to achieving our overall objective of peace. The 
pursuit of a negotiated two-state solution requires a 
commitment to peace. And when the PA pays terrorists for 
attacks on innocent civilians, that real commitment for peace 
simply does not exist.
    I urge my colleagues to support the Taylor Force Act in 
order to prevent more senseless killings. Taylor Force served 
our country to advance and protect peace. His life was taken by 
terrorists. But this legislation honors his name and his memory 
by stopping a terrible, dangerous, abhorrent practice of paying 
terrorists. The PA must stop these payments.
    This bill will advance peace. I urge my colleagues to 
support it, and I yield back.
    Chairman Royce. Mr. Steve Chabot of Ohio.
    Mr. Chabot. Thank you, Mr. Chairman.
    And I support all the excellent measures before us here 
this morning. I will speak out briefly on just one.
    Mr. Crowley and I introduced House Concurrent Resolution 90 
to condemn the Burmese military's systematic attacks on the 
Rohingya in Burma. For far too long, the Burmese military has 
repressed the Rohingya, denying them political and civil 
rights, most notably citizenship, and making them a stateless 
people.
    It is no secret that the Burmese military sees the 
Rohingya, really, as invaders of their territory. That is why 
they jumped at the opportunity in August when a rogue group of 
Rohingya attacked military outposts to attack the entire 
Rohingya population and to drive them from the country in what 
has been called a textbook example of ethnic cleansing. These 
attacks and attacks by security services and mobs have caused 
over 600,000 Rohingya to flee Burma for Bangladesh. At least 
250,000 of these are children.
    Further, credible human rights organizations have 
documented the abuses these civilians have suffered, and news 
reports have shown the absolute horrors that they have faced. 
Unfortunately, attacks like these are pretty much business as 
usual for the Burmese military in its attempt to suppress 
Burma's many other enthic groups. Therefore, much of the 
country remains in a state of civil war. Even though some 
institutions have been turned over to civilians in recent 
years, the military continues to control too much of the 
government, and it remains too independent from civilian 
leadership. In light of this pattern and the Burmese military's 
attacks on the Rohingya, Mr. Crowley and I have sought to bring 
much-needed attention to the situation in Burma and work toward 
specific, tangible, and productive responses from the United 
States.
    This is why we have corresponded twice, once in September 
and once in October, with Secretary Tillerson on the issue, 
urging him to apply targeted sanctions to the Burmese military 
and work with the international community to bring these 
attacks to an end. I want to thank many members of this 
committee for signing on to those letters. The attacks on the 
Rohingya are absolutely entirely disproportionate and 
unacceptable to the initial attacks which took place on the 
outpost previously. Today's resolution sends this message. That 
is why I would urge my colleagues to support H. Con. Res. 90, 
to condemn the ethnic cleansing of the Rohingya and call for a 
swift end to the chaos and the violence in that very 
challenging part of the world.
    And I again want to thank the members of this committee 
that have been active in this effort.
    I yield back.
    Chairman Royce. Mr. Joaquin Castro.
    Mr. Castro. Thank you, Chairman Royce.
    First, on the Taylor Force Act, I support it. And the 
United States has offered aid to the Palestinian Authority for 
programs in Gaza and the West Bank because we want to see the 
conditions improve in those places. But the United States 
cannot be party to what amounts to State-paid murder 
compensation. And so I hope today will be a strong signal and 
incentive for the Palestinian Authority to change its ways.
    On the resolution dealing with the Rohingya, first, thank 
you to my fellow Democratic Congressman, Democratic Caucus 
Chairman Joe Crowley, and also to my colleague on the 
committee, Mr. Chabot, for their work on highlighting what is 
the worst case in modern history, contemporary history at 
least, of ethnic cleansing.
    Since August 25th, 615,000 people, Rohingya, have left 
Burma, most of them for neighboring Bangladesh. Thousands have 
been raped or killed. And yet, a few hours ago, it was reported 
that our Secretary of State, Rex Tillerson, refused to call 
this a case of ethnic cleansing, despite the fact that the 
United Nations has called it exactly that, as Mr. Chabot said 
in the quote that he offered.
    Importantly, there has also been a difference in how this 
situation has been described now by our Secretary of State and 
our U.N. Ambassador. This has been a constant problem in this 
administration. And I am sure that it has perhaps happened in 
other administrations. But this is a textbook example of that.
    Nikki Haley, our U.N. Ambassador, called the violence ``a 
brutal, sustained campaign to cleanse the country of an ethnic 
minority,'' whereas today Secretary of State Tillerson said, 
``Whether it meets all the criteria of ethnic cleansing, we 
continue to determine ourselves.'' And he also asked for 
patience in the situation.
    Once again, from the White House and from the 
administration, on controversial and important issues, you 
often get two or three or four or five different answers, 
depending upon who is giving their judgment and their opinion 
and their perspective. And I hope that the Congress will pass 
this resolution and that we can look into taking further action 
for this severe crime against humanity.
    I yield back, Chairman. Thank you.
    Chairman Royce. Thank you, Mr. Castro.
    We now go to Mr. Joe Wilson of South Carolina.
    Mr. Wilson. Thank you, Mr. Chairman. I am grateful to 
support H.R. 3542, the Hamas Human Shields Prevention Act. I 
appreciate Chairman Ed Royce for coordinating with Ranking 
Member Eliot Engel this markup of such important legislation 
that we are hearing about today amidst a number of important 
initiatives to protect American families. This bipartisan 
action today is another indication of working together on this 
committee, including Congressman Seth Moulton as the original 
cosponsor with me on this particular bill. We are grateful to 
be working with Chairwoman Ileana Ros-Lehtinen and Congressman 
Ted Deutch and many others in expressing support for this 
crucial legislation that imposes direct sanctions on Hamas 
terrorists for using civilians as human shields.
    Hamas, financed by Iran, is embedding its forces near 
hospitals, mosques, and schools in the Gaza area and is 
intentionally putting lives at risk in turning these civilians, 
and especially women and children, into human shields. This is 
a gross violation of human rights and a violation of 
international law. It reveals the inhumanity of putting lives 
at risk of people they claim to represent. This legislation is 
important to ensure the lives of innocent civilians are saved 
by imposing direct and strong sanctions against Hamas and their 
uncivilized actions.
    In conclusion, I especially appreciate today the 
recognition of Taylor Force, a beloved U.S. Army veteran with 
family in my home State of South Carolina who was cowardly 
stabbed by a Palestinian terrorist.
    I yield back my time.
    Chairman Royce. Thank you.
    We go to Dina Titus of Nevada.
    Ms. Titus. Thank you, Mr. Chairman.
    I, too, support all these measures that are before us. But 
I would like to speak specifically about H. Resolution 401. 
Thank you for supporting that.
    This is the resolution that urges nations to outlaw the dog 
and cat meat trade. I have been a cosponsor of this legislation 
and worked in Congress to end this practice, end the dog and 
cat meat trade, end the use of dog leather, and to end other 
undue harm or abuse that comes to these animals.
    Roughly 30 million dogs and 10 million cats annually are 
the victims of the meat trade in Asia. The extreme cruelty that 
these animals suffer is abhorrent, and we shouldn't turn a 
blind eye to these practices which run in conflict to our own 
animal cruelty laws.
    In American culture, we cherish dogs and cats as more than 
just random animals. They can serve as therapy animals, search-
and-rescue assistants, and police dogs that aid with drug and 
bomb searches. They serve with airport security. They are 
companions, and they are cherished family pets.
    This resolution enjoys bipartisan support, and we must 
continue to work in a bipartisan manner to better protect 
animals, both in other countries and here at home in the United 
States. So I look forward to passing this resolution to signify 
our commitment to combatting animal cruelty.
    And I yield back.
    Chairman Royce. Thank you.
    We go to Ted Poe of Texas.
    Mr. Poe. Thank you, Mr. Chairman.
    I support these bills put before us today. I would like to 
thank Chairman Royce and Ranking Member Engel for marking them 
up. I am a cosponsor of five, but I would like to talk about 
three.
    Mr. Mast's bill, H.R. 2712, the Palestinian International 
Terrorism Support Prevention Act of 2017, is a very important 
piece of legislation. The bill takes aim at foreign supporters 
of Palestinian terrorism that targets Israel, our most 
endangered ally in the Middle East. The terrorist groups Hamas 
and the Palestinian Islamic Jihad only serve because they have 
outside support from foreign entities. For years, Iran and 
Qatar have been their primary state sponsors, giving millions 
of dollars to prop up thugs who target civilians and spark 
conflicts that have left the Gaza Strip in ruin.
    Hamas is a terrorist group that has proven it is more 
concerned with making war on Israel than building a Palestinian 
state. It has spent millions of dollars on resources on 
building tunnels and rockets to attack Israeli civilians. This 
is not an organization interested in peace with its neighbors. 
It is not even an organization that wants to defend 
Palestinians.
    They are not building bomb shelters to protect people. Only 
weapons and terrorists are found in those tunnels. They launch 
indiscriminate rocket barrage on civilian targets while hiding 
within civilian populations. The U.N. has even reported that 
Hamas stored rockets in its schools. This is terrorism, plain 
and simple.
    Both Iran and, our so-called ally, Qatar are responsible 
for this. This bill would hold them accountable. It would 
effectively make sponsoring terrorism more costly by 
sanctioning those who do so. This is long overdue, and I hope 
that Congress passes this legislation very quickly.
    I also want to express my support for Mr. Grothman's 
resolution, H.R. 407, condemning the persecution of Christians 
around the world. The fact is the world's largest religion is 
also the world's most persecuted religion. Last month in Cairo, 
a Coptic priest was stabbed to death while collecting 
humanitarian aid. Father Samaan Shehata was killed simply for 
his Christian faith.
    According to Open Doors USA, 322 Christians are killed each 
month and 214 churches and Christian properties are destroyed 
each month. We have all heard about the horrible persecution of 
Christians in the Middle East at the hands of terrorist actors 
like ISIS. Christian communities dating back to the time of 
Christ have been wiped out in service of ISIS' perverted 
ideology of hatred. It is not just terrorists targeting 
Christians. Government-sponsored Christian persecution is a 
major driver. These are some of the Nations: North Korea, Iran, 
Pakistan, and Putin's dictatorship of Russia regularly target 
Christian populations. I have had a family member that was in 
Russia last year. We haven't heard anything probably in the 
national media about the Christian persecution that is taking 
place under Putin, but it is there.
    Christians in these countries face restrictive legislation, 
imprisonment, and, in some cases, executions. It is 
increasingly dangerous to be a Christian in today's world. I am 
glad the bill names and shames those countries that criminalize 
Christianity. This will undoubtedly bring comfort to those who 
are persecuted, especially persecuted Christians around the 
world. So we send that message across the world that we refuse 
to be silent.
    I also want to comment on the Taylor Force Act. The 
Palestinian Authority pays terrorists who kill Israelis. If a 
terrorist is in jail or is killed, the family member gets the 
money. This hired murder scheme by the Palestinian Authority is 
a criminal action. And it is time that the world understands 
that the Palestinians pay people to kill Israelis. And the idea 
that the United States would give them any money is 
preposterous. So I support the bill in the Taylor Force Act 
that we stop American aid that goes to the Palestinian 
Authority, money that they use to pay terrorists to kill 
Israelis. And that is just the way it is.
    I yield back.
    Chairman Royce. Thank you, judge.
    We go now to Brad Schneider of Illinois.
    Mr. Schneider. Thank you, Chairman Royce, as well as 
Ranking Member Engel, for convening today's markup. I am 
pleased to support all the legislation in today's en bloc 
package. In particular, the Taylor Force Act that will 
hopefully end the pay-for-slay practice we see coming from the 
Palestinian Authority, the Palestinian International Support 
Prevention Act of 2017, and the Hamas Human Shield Prevention 
Act.
    I appreciate the inclusion of my three amendments in 
today's en bloc package. I applaud the committee for 
highlighting the critical issue of cybersecurity and 
responsible cyberspace policy, in particular in light of 
foreign entities seeking to nefariously influence our 
elections.
    H.R. 3776, the Cyber Diplomacy Act, encourages our 
President to enter into arrangements with foreign governments 
to support international cyberspace policy and requires a 
status report 1 year after the agreement is reached. The status 
report will assess whether the parties to the arrangement have 
fulfilled their commitments. My amendment would ensure that if 
such commitments are not fulfilled, we are notified what steps 
our Government has taken or is planning to take to ensure all 
commitments will be fulfilled. This is a commonsense amendment 
to keep Congress apprised of developments and ensure 
transparency in these agreements.
    I also appreciate this committee's consideration of 
multiple legislation to crack down on terrorist groups in the 
Middle East, including Hamas and the Palestinian Islamic Jihad. 
H.R. 2712, the Palestinian International Terrorism Support 
Prevention Act, would sanction individuals and foreign 
governments that knowingly materially assist Hamas, the 
Palestinian Islamic Jihad, or any affiliate or successor.
    H.R. 3542, the Hamas Human Shields Act, would sanction 
those affiliated with Hamas who are responsible for gross 
violations of human rights by their use of human shields. The 
use of human shields is a despicable act and should not be 
tolerated.
    My amendments to these two important bills put a spotlight 
on Hamas and the Palestinian Islamic Jihad's underground 
terrorist tunnels that place civilians in harm's way because of 
their placement in densely populated areas, near schools, 
hospitals, and mosques. Just last month, UNRWA confirmed the 
discovery of yet another terrorist tunnel dug under one of its 
schools in Gaza. Also, last month, Israel discovered and 
destroyed a PIJ tunnel that infiltrated Israel. A senior member 
of PIJ, Khaled al-Batash, said that the purpose of the tunnel 
was kidnapping soldiers. These tunnels are designed to serve as 
a conduit to conduct terrorist attacks against Israel, to 
kidnap civilians and soldiers, and to wreak havoc and fear 
among bordering communities.
    In 2006, Hamas used an underground tunnel to kill two 
Israeli soldiers and then captured Gilad Shalit who was held 
captive for more than 5 years. These tunnels are a grave threat 
to our ally, Israel, and we need to continue to raise the 
awareness of these underground terrorist tunnels and to prevent 
Hamas, PIJ, and others from using such tunnels to conduct 
terrorist attacks.
    I hope my colleagues will join me in supporting this 
important legislation, and I urge their swift passage. And I 
yield back.
    Ms. Ros-Lehtinen [presiding]. The gentleman yields back.
    Mr. Ron DeSantis of Florida.
    Mr. DeSantis. I thank the chairman. I appreciate the folks 
involved in these bills, particularly my friend from Florida, 
Mr. Mast. I think the bill was long overdue. I think it is 
going to have a good impact, and I am enthusiastically 
supportive of it.
    I also have one way I think that could make it stronger. I 
am not introducing it as an amendment because it does implicate 
jurisdiction in a different committee. One of the things I 
think that we see that has been a problem is there is not 
really a way to get direct justice for American victims of 
Hamas terrorism. You are not allowed to go sue a government 
that is funding Hamas or directing Hamas and get justice. And I 
think that that would be good to change that.
    So we will be introducing legislation very soon to amend 
the Foreign Sovereign Immunities Act which will allow U.S. 
victims of terrorism to sue countries when the President 
determines that the governments of those countries are engaged 
in terrorism supporting certain groups like Hamas.
    I think that will be good for victims. But I also think it 
will create a deterrent for some of these countries. We hear a 
lot about Qatar funding Hamas, funding the Muslim Brotherhood, 
being involved with that. Well, going forward, if those 
governments know there could be a right of action, obviously, 
financially that would be an issue for them, but I think, even 
more importantly, just politically, having those cases brought 
and being held accountable would not be something that they 
would look forward to doing, so potentially could help change 
behavior.
    But, I think, by and large, I think we got a good set of 
bills.
    We are doing the Taylor Force Act as well. I am really 
excited about that. I wish we would have passed that earlier in 
the year, but we are passing it now. When you have a government 
or an entity like the Palestinian Authority that is honoring 
the perpetrators of terrorism, that if you massacre enough 
Jews, maybe you will have a street named after you, maybe you 
will have a sports stadium named after you, you will be lauded 
in schools. That is absolutely unacceptable and American tax 
dollars should not go to underwrite any of that. And so this is 
an important first step.
    So I look forward to introducing our bill. I think it will 
be a good complement to what Mr. Mast has done here today, and 
I think it will make an impact. So my hats off to my friend 
from Florida, Brian Mast, and I yield back the balance of my 
time.
    Ms. Ros-Lehtinen. The gentleman yields back.
    Mr. Espaillat of New York.
    Mr. Espaillat. Thank you, Madam Chair, Ranking Member 
Engel. Thank you for continuing this very impressive bipartisan 
work in this committee. I am proud to lend my support to the 
nine bills before us today. H.R. 1164, the Taylor Force Act; 
H.R. 2712, the Palestinian International Terrorism Support 
Prevention Act; and H.R. 3542, Hamas Human Shield Prevention 
Act are instrumental in advancing our position in support of 
the State of Israel, one of our strongest, if not the 
strongest, ally in the region. We should be using every 
possible tool in order to fight any incitement and violence in 
the region and work toward peace. I stand with the support of 
the State of Israel, and I am proud to lend my support to these 
pieces of legislation.
    I am also a cosponsor and a supporter of H. Resolution 90, 
Condemning ethnic cleansing of the Rohingya and calling for an 
end to the attacks in and an immediate restoration of 
humanitarian access to the state of Rakhine in Burma. More than 
\1/4\ million ethnic Rohingya Muslims have been forced from 
their homes in the Rakhine State of Myanmar to neighboring 
Bangladesh. They have not done so in search of comforts. They 
have done so with the singular goal of survival. The Government 
of Myanmar, now led by his political heir Aung San Suu Kyi, 
has, with extraordinary prejudice, diminished the political 
voice and civil rights of the ethnic Rohingya Muslim population 
by now denying their citizenship and basic humanitarian rights. 
The resulting violence by the military, the manifestation of 
the will of the Government of Myanmar against its own citizens 
has now been described by the United Nations High Commissioner 
of Human Rights as a textbook example of ethnic cleansing.
    This resolution affirms that there is no tolerance by the 
United States of the human rights violations, murderous ethnic 
cleansing, and atrocities against civilians perpetrated by the 
Government of Myanmar. As such, I am proud to lend my support.
    I also submitted an amendment, and I am glad to support 
H.R. 1415, End Neglected Tropical Diseases Act, which would 
support the treatment and elimination of neglected tropical 
diseases. Since Hurricane Irma hit Puerto Rico, the death toll 
continues to rise, and today, the island has reported 76 
possible cases of leptospirosis. Without treatment, 
leptospirosis can lead to kidney damage, meningitis, liver 
failure, respiratory distress, and, of course, death. We need 
to ensure that individuals displaced by manmade and natural 
disasters are provided the treatment they deserve.
    Lastly, H.R. 336 reaffirms our strong commitment with 
Mexico as a partner. It encourages continued security 
cooperation, including on violence reduction in Mexico, 
counterterrorism, and the increased trafficking of heroin and 
fentanyl. Just yesterday, the Drug Enforcement Administration 
reported that 80 percent of fentanyl seized in New York City is 
from the Sinaloa cartel. I think we need to be cracking down on 
drug cartels, not undocumented immigrants. They are the ones 
bringing the drugs to our Nation, many of it through ports of 
entry and so coming to the United States from these cartels. We 
must do everything possible, Madam Chair, to stop them.
    I thank you, and I yield back my time.
    Ms. Ros-Lehtinen. Thank you, Mr. Espaillat.
    Ted Yoho of Florida.
    Mr. Yoho. Thank you, Madam Chair.
    I support all these amendments and bills, and I think they 
are good, and look forward to voting on them. Thank you.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Lieu?
    Not there.
    Mr. Cicilline.
    Mr. Cicilline. Thank you, Madam Chairman.
    I want to thank the chairman and the ranking member for 
holding this markup today and for once again bringing before 
this committee a range of bipartisan measures, each of which I 
support.
    I am happy to be a cosponsor of the bill introduced by my 
ranking member, Mr. Engel, reaffirming the strong commitment to 
the United States-Mexico partnership. The relationship between 
Mexico and the United States goes back to our founding, and we 
have enjoyed a long friendship, a mutually beneficial 
partnership on issues ranging from drug trafficking, border 
control, national security, environmental protection, and share 
deep roots between many of our citizens. I am pleased to see 
such strong bipartisan support for this resolution which 
recognizes the importance of the U.S.-Mexico relationship.
    I am also a cosponsor of Chairman Royce's cybersecurity 
bill, which will elevate the issue of cybersecurity within our 
diplomatic efforts and improve U.S. State Department engagement 
issues of cyber diplomacy to promote a more open and secure 
internet. I strongly support the establishment of an Ambassador 
over cyberspace at the State Department, as well as the other 
measures included in this legislation.
    I am proud to cosponsor H.R. 1415, the End Neglected 
Tropical Diseases Act, lead by my colleagues Chris Smith and 
Gregory Meeks. I have had the opportunity, along with many of 
my colleagues, to visit and see for myself some of the areas of 
the world where neglected tropical diseases still run rampant, 
impacting the health of millions of people. The work that USAID 
and other government agencies have been doing on NTDs is 
lifesaving, and this bill will only improve the ability of our 
various government agencies to coordinate and work 
collaboratively to ensure that treatment reaches as many people 
as possible as quickly as possible.
    House Resolution 401 urges all nations to outlaw the dog 
and cat meat trade, a practice that has lovers of animals, I 
find, abhorrent. I thank my colleague from Florida, Mr. 
Hastings, for being a devoted and outspoken advocate against 
the dog and cat meat trade in Asia, and I am happy to be a 
cosponsor of this important resolution.
    I support Representative Grothman's resolution condemning 
the persecution of Christians and other religious minorities 
worldwide. In recent years, there has been an increase in 
discrimination, targeting, persecution, and killing of 
Christians and other minority religious groups, particularly 
with the rise of the Islamic State and other extremist groups 
in the Middle East. All people should be free to practice their 
religion with tolerance and respect from their government and 
the communities in which they live.
    I want to thank Representative Crowley and Representative 
Chabot for introducing Resolution 90 condemning ethnic 
cleansing of the Rohingya and calling for an end to the attacks 
and an immediate restoration of humanitarian access to the 
state of Rakhine in Burma, of which I am a cosponsor. The 
coordinated and concerted attacks against the Muslim Rohingya 
people of Burma are appalling and must be stopped by the 
Burmese authorities immediately.
    The country of Bangladesh is absorbing an astonishing 
number of Rohingya refugees, over 600,000 since the newest 
round of violence began. Accommodating this extreme number of 
people so quickly, many of whom have suffered severe trauma or 
have serious health concerns, is not an easy task. I commend 
the Bangladeshi Government for their willingness to assist 
these people who have suffered so much, and I am pleased to 
support this resolution as a cosponsor.
    We are considering two bills today that will punish people, 
enemies who engage in or support terrorist activity. 
Spearheaded by Representative Brian Mast and Josh Gottheimer, 
the Palestinian International Terrorist Support Prevention Act 
will impose sanctions on foreign people and governments who 
provide support to terrorist groups, including Hamas and 
Palestinian Islamic Jihad. And Hamas Human Shield Prevention 
Act condemns the abhorrent practice of using human shields by 
Hamas, and imposes sanctions on Hamas-related entities that 
engage in or support the use of human shields.
    Finally, we are considering the Taylor Force Act, which 
seeks to end the despicable habit of the Palestinian Authority 
rewarding and incentivizing terrorism by paying the families of 
terrorists convicted of engaging in terrorism against Israel. 
This legislation is named in honor of U.S. Army veteran and 
West Point graduate Taylor Force, who was tragically killed by 
a Palestinian knife attack in 2016. This legislation will limit 
assistance that directly benefits the Palestinian Authority 
until they end the practice of paying terrorist families. The 
U.S. has not provided direct assistance to the Palestinian 
Authority since 2014, but we continue to fund organizations 
that work with the Palestinian Authority. This bill will end 
any assistance that directly benefits the Palestinian Authority 
until they end their terrorist payment system. I strongly 
support this legislation which attempts to end the abhorrent 
practice that incentivizes and rewards terrorism.
    I want to be sure that we craft a policy response that, as 
we do that, we do it in a thoughtful way that achieves our 
desired goals without unattended consequences that could have a 
negative impact in American interests in the West Bank in Gaza 
on the stability of the Palestinian-controlled territories or 
that could do harm to Palestinian women and children. And that 
is why I support the amendment being offered by my Democratic 
colleague, Mr. Connolly, that would place an exemption in this 
legislation for programs that provide vaccinations to children.
    Additionally, I think it is important that we, as 
policymakers, get a detailed account of the impact of this 
legislation once it is put into place, and that is why I am 
offering an amendment to require a one-time report that 
outlines the programs, projects, and activities that are 
suspended as a result of this legislation.
    I want to thank the chairman again, the ranking member, for 
their support of my amendment. I sincerely hope that by passing 
the Taylor Force Act, we send a message to the Palestinian 
Authority that this disgusting payment system must be stopped.
    And with that, I yield back.
    Chairman Royce [presiding]. Thank you, David.
    We go to Lee Zeldin of New York.
    Mr. Zeldin. Well, thank you, Mr. Chairman.
    I appreciate the committee's consideration today of the 
Taylor Force Act. I want to thank Mr. Lamborn for his 
leadership introducing this bill. And I am proud to be the 
original cosponsor of this important proposal.
    It is important to understand why this legislation is so 
key to pass. Innocent Americans and Israelis are being murdered 
by Palestinian terrorists. Those Palestinian terrorists are 
being treated as martyrs for committing these acts of 
terrorism. And while the U.S. sends our tax dollars to the 
Palestinian Authority, these terrorists and their families are 
being financially rewarded by the PA.
    Taylor Force is an American hero, a graduate of the United 
States Military Academy at West Point. He deployed overseas in 
defense of our freedoms and liberties and everything that makes 
our Nation the greatest Nation in the world.
    The Taylor Force Act will prevent American foreign aid from 
funding the PA, unless the Secretary of State certifies that 
the PA has taken credible steps to end acts of violence against 
U.S. and Israeli citizens, publicly condemns such acts of 
violence, terminates payments for acts of terrorism against the 
U.S., and revokes any law authorizing this payment system. This 
legislation is long overdue.
    I thank Chairman Royce for his leadership in ensuring that 
this bill came up for a vote in this committee to get sent to 
the floor for passage. I encourage all of my colleagues to 
support it, and I yield back.
    Ms. Ros-Lehtinen [presiding]. Mr. Sherman of California.
    Mr. Sherman. Thank you.
    Perhaps everything has been said, but I haven't said it. 
Thank you for yielding 5 minutes to me.
    Mr. Chairman, Mr. Ranking Member, I want to commend you for 
bringing worthy bills to this committee and for doing it in a 
bipartisan manner. These bills are worthy of support, and that 
is why I have cosponsored each and every one of them.
    One deals with the United States-Mexico partnership; 
another, the dog and cat meat trade in Asian countries. We have 
one on tropical diseases, the Palestinian International 
Terrorism, the use of human shields by Hamas, and a resolution 
condemning Burma's military for attacking the Rohingya Muslims.
    I especially want to focus on H. Con. Res. 90 condemning 
the ethnic cleansing of Rohingya introduced by Mr. Crowley and 
Mr. Chabot. In August of this year, Burma's military, also 
known as Myanmar, launched a military operations against 
Rohingya Muslims and over 500,000 Rohingya have fled to 
neighboring Bangladesh.
    The resolution calls upon the Burmese military to cease 
attacks against the Rohingya and restore humanitarian access 
for them. It expresses support for Bangladesh for providing 
refuge for so many refugees, and calls upon the President to 
impose sanctions on those responsible for human rights abuses, 
including members of the Burmese military and security 
services.
    Not only should we take a principled stand, but we need to 
remind the world that we are taking a principled stand. The 
United States is among the forefront of nations trying to 
protect the Rohingya, contrast that to China, which seems to 
care only about its relationship with the Burmese regime. And 
we should remind the Muslim world in particular that we are the 
only country to ever bomb a Christian nation in order to 
protect Muslims, not once but twice. Both Kosovo and Bosnia 
were protected by United States bombing of Serbia.
    I strongly support two resolutions that condemn Palestinian 
terrorism. One in particular is H.R. 3542, the Hamas Human 
Shields Prevention Act, that has been introduced by Mr. Wilson. 
This legislation sanctions Hamas members for their use of human 
shields. The House passed similar legislation regarding 
Hezbollah last month, and I was pleased to cosponsor that 
legislation as well.
    H.R. 2712, the Palestinian International Terrorism Support 
Prevention Act of 2017, introduced by Mr. Mast, calls for the 
imposition of sanctions against supporters of Hamas. Its 
findings mention that Hamas has received significant financial 
and military support from Qatar, and possibly Iran as well. And 
it is time for us to reevaluate our relationship with Qatar in 
light of a number of recent developments, but especially 
focused on their support for Hamas.
    Finally, there is the Taylor Force Act, which I strongly 
support. And rather than speak at great length, I will 
incorporate by reference Mr. Deutch's comments, which I think 
were excellent on this subject. I think that his phrase ``pay 
for slay'' is correct. I don't know whether he developed that 
or got it from elsewhere. And I believe that another one of our 
members used the term ``murder for hire.'' They are both 
applicable.
    So, Mr. Chairman, I thank you for your work and yield back 
my time.
    Chairman Royce [presiding]. Thank you, Mr. Chairman.
    We go to Brian Mast of Florida.
    Mr. Mast. Thank you, Chairman.
    You know, I could say that following my service in the U.S. 
Army, I chose to volunteer alongside the Israeli Defense 
Forces, because our countries do share very common values that 
all countries should share, those ideals of freedom, democracy, 
and mutual respect for the human rights of all people. My 
service has also brought me face-to-face with those who do not 
have a mutual respect for those ideals that we should all be 
rallying around.
    Hamas preaches destruction to Israel, death to the values 
that we as citizens of the United States hold dear. It is well 
known that Hamas is a foreign terrorist organization 
specifically designated by the United States Government as a 
global terrorist. The organization is responsible for the 
deaths of hundreds of Israelis, for dozens of U.S. citizens. 
Similarly, the Palestinian Islamic Jihad was designated a 
foreign terrorist by the Department of State, and it has also 
been named a specially designated global terrorist by the 
Department of Treasury. And this foreign terrorist organization 
has claimed credit for multiple terrorist attacks in Israel, 
including an attack that killed a U.S. citizen, Alisa Flatow, a 
student from New Jersey, who was participating in a Jewish 
student program while in Israel.
    My bill, H.R. 2712, the Palestinian International Terrorism 
Support Prevention Act, targets these groups. It targets them 
by imposing sanctions on those who knowingly and materially 
assist Hamas or the Palestinian Islamic Jihad or any affiliate 
or any successor organization. It will require that the 
President report to Congress on foreign entities that 
contribute to support networks of Hamas, and it will require 
that we impose sanctions on those bad actors until they cease 
to do so.
    Under this legislation, the administration will be required 
to impose two or more sanctions to ensure that they understand 
the United States will not stand by for any foreign group, 
state, or person providing assistance to any terrorist 
organization.
    You know, for far too long, the number one terror state 
sponsor in the world, Iran, they have armed their dangerous 
tentacles, one of them being Hamas. The Israeli authorities 
have seized vessels filled with weapons and antiship missiles 
coming from Iran headed toward the Gaza Strip. From the Gaza 
Strip, there have been hundreds of missiles that have been 
fired into Israel that came directly from Iran.
    Hamas is not the only terrorist organization that benefits 
from Iranian support. The Palestinian Islamic Jihad receives 
considerable support from Iran. There has been one estimation 
that there has been up to $70 million a year going to the 
Palestinian Islamic Jihad coming from Iran.
    This bill will increase accountability. It will further 
isolate these bad actors. It will hold countries like Iran 
responsible for assisting in violent extremism. Foreign 
supporters, they have to face consequences for being associated 
with, for contributing to, for participating in these heinous 
terror networks.
    Beyond that, I want to lend my support for the work the 
whole of this committee has done today. It is outstanding work, 
especially the work on the Taylor Force Act. I have had the 
opportunity to speak with a very high level official from the 
Palestinian area. And when I question him about the payments 
given to families, he said to me very callously and very 
arrogantly, he actually chuckled to me, that it was nothing 
more than what is like our Social Security here in the United 
States of America. To the Palestinians there, they believe that 
there is a special Social Security that should be given for 
killing our Jewish friends. And I can't think of much more that 
would be more disgusting than that. And the U.S. should play 
absolutely no role in rewarding this rancid, anti-Semitism and 
this rancid hatred.
    All of the work today is proof that confronting hatred and 
supporting our ally Israel, it is not an issue of left versus 
right. This has been very bipartisan work today. It is an issue 
of right versus wrong. I thank everybody for the work today, 
and I yield back, Chairman.
    Chairman Royce. And Major Brian Mast, we thank you.
    We now go to Thomas Suozzi of New York.
    Mr. Suozzi. Thank you, Mr. Chairman. I want to thank you 
and the ranking member for your bipartisan leadership. Once 
again, we are very grateful to you. And I want to commend my 
colleagues for the good work that they have done here today in 
putting forward these nine bills, which I intend to support.
    I would like to speak today in support of H.R. 1164, the 
Taylor Force Act. The Taylor Force Act withholds U.S. aid that 
benefits the Palestinians until they take demonstrable steps 
toward ending violence and incitement against Israeli citizens.
    For too long we have allowed the Palestinian Authority to 
play a duplicitous game. They talk about nonviolence, about 
wanting peaceful coexistence with Israel, that they want to be 
a negotiating partner with Israel. Then they turn around and 
pay millions of dollars each year to terrorists that make 
peaceful coexistence impossible.
    The Palestinian Authority calls it a welfare program, as 
Mr. Mast just pointed out. But what kind of welfare program 
rewards people for committing crimes, heinous crimes? The 
Palestinian Authority pays its teachers about $500 per month. 
It pays terrorists, like the one who killed Taylor Force, up to 
$3,500 a month for life. These are demented priorities. These 
payments to terrorists make peace impossible. They are an 
affront to American values.
    So it is time we send a clear message to President Abbas 
and the rest of the Palestinian leadership. It should be an 
easy choice. Stop supporting and incentivizing terrorism that 
you claim to oppose. If you cannot make that simple choice, we 
cannot support you. We owe that to Taylor Force.
    Taylor represented the best of America. A West Point 
graduate, an Army veteran who served in Iraq and Afghanistan, 
an MBA student, a young man with a bright future ahead of him. 
And then his life was cut short in a brutal terrorist stabbing 
in Israel. His killer went on to stab 11 other people, Jews and 
Arabs, men and women, one woman even pregnant. It was the third 
Palestinian attack against Israelis just in that one single day 
in March 2016. And all of those attackers and others like them, 
under this welfare system, would be rewarded. The Taylor Force 
Act seeks to rectify this injustice.
    Now a brief word about Hamas. Hamas has killed hundreds of 
Israeli citizens and rained rockets on Israeli cities. It has 
also caused untold suffering for 2 million Palestinians in Gaza 
who live under its violent and corrupt rule. We hope that last 
month's reconciliation with Fatah is the first step toward 
disarming this terrorist group and stripping it of its power, 
but it leaves many questions unanswered. And we need to keep 
the pressure on with further sanctions.
    H.R. 3542 sanctions Hamas for its human shields, while H.R. 
2712, the Palestinian International Terrorism Support 
Prevention Act of 2017, of which I am an original cosponsor, 
imposes sanctions against Hamas' foreign supporters.
    Again, I thank my colleagues for their leadership on all 
the issues put forth to our committee today. Whether we are 
speaking out for justice for murdered Israelis, the grave 
humanitarian crisis affecting Rohingya, or shedding light on 
the persecution of Christians around the world, this committee 
continuously shows its commitment to human rights, justice, 
stability, and may I mention bipartisanship.
    Thank you, and I yield back the balance of my time.
    Chairman Royce. Thank you, Tom.
    We go to Mike McCaul of Texas.
    Mr. McCaul. Thank you, Mr. Chairman.
    I want to first highlight the U.S.-Mexico resolution. This 
bipartisan resolution was introduced by myself and Ranking 
Member Eliot Engel. It reaffirms a strong commitment to the 
U.S.-Mexico partnership. As a Texan, chairman of the U.S.-
Mexico Interparliamentary Group, and chairman of the Homeland 
Security Committee, I cannot overstate the importance of a 
strong partnership between the United States and Mexico. And 
let me be clear: This is a partnership.
    There are times in which our respective countries may 
disagree on matters of foreign policy, but it is of critical 
importance to the economic and security interest of both 
countries to work through our differences in a respectful, 
productive manner. The legislative branches of our respected 
governments have a special role to play in this regard. As 
chairman of the U.S.-Mexico IPG, I have seen firsthand the 
power of legislative diplomacy.
    In June of this year, I led a delegation of Members to 
Mexico during one of the most trying times in our long 
relationship. Needless to say, a little respect and civil 
discourse can go a long way between our two delegations, and we 
made a lot of progress on a number of issues.
    So as we continue to engage Mexico in the many pressing 
issues of the day, I hope this resolution will serve as a 
reminder as to why this relationship is so important.
    And next, I would like to voice my support for a bill you 
sponsor, Mr. Chairman, and I was honored to cosponsor, and that 
is the Cyber Diplomacy Act. As we all know, cyberspace is 
increasingly becoming a venue for malicious actors to harm the 
United States and our allies. At a time when cyber landscape is 
becoming complex and dangerous, we should be sharpening the 
tools in our toolkit.
    As such, the Cyber Diplomacy Act allows our State 
Department to better perform 21st century diplomacy by 
establishing an Ambassador for Cyberspace to help promote our 
cyber interests internationally. It enhances transparency at 
the State Department's current and future cyber arrangements 
with our partners, and ensures our cyber policy evolves with 
the landscape by requiring each new administration to produce a 
strategy relating to international cyberspace. Simply put, we 
need better coordination at the State Department to keep the 
internet free, open, and safe from malicious activities of 
adversaries who threaten our interests.
    To that end, Mr. Chairman, I hope to make this bill even 
stronger through an amendment that would specify the Ambassador 
for Cyberspace, among other things, to be responsible for 
helping coordinate our interagency efforts to counter 
cyberterrorism. This very simple amendment would go a long way 
to ensure the State Department plays a significant and 
effective role in preventing terrorists from exploiting our 
cyberspace.
    And finally, I would like to highlight the bill, the Taylor 
Force Act of critical importance. This legislation is a 
critical step in ensuring the kind of atrocity that took place 
on March 8 of last year, which left former U.S. Army officer 
and Vanderbilt student Taylor Force dead, to make sure that 
that is not repeated.
    Specifically, legislation would withhold U.S. economic 
assistance to the Palestinian Authority until it has taken 
credible steps to end the promotion of violence against 
Americans and Israeli citizens, fully stop the payments for 
acts of terrorism which takes place, and publicly condemns acts 
of violence, and cooperate in investigations of such acts.
    I had the honor to share the stage with Mr. Force last 
month with you, Mr. Chairman. And I hope no family ever has to 
endure a tragedy like he and his family have. In fact, this 
committee should do all it can to ensure that is the case.
    And with that, I yield back.
    Chairman Royce. Thank you, Mr. McCaul.
    We go to Dan Donovan from New York.
    Mr. Donovan. Thank you, Mr. Chairman.
    And I am pleased to support all the measures being offered 
in today's markup. I specifically would like to speak about 
three of them.
    The Taylor Force Act is a bill that was named after Taylor 
Force, a U.S. citizen and war veteran, who was fatally stabbed 
by a Palestinian assailant while studying abroad as a private 
citizen. The Palestinian Authority despicably continues to give 
payouts to families of so-called martyrs who commit acts of 
terrorism.
    While the U.S. has responded by reducing the Economic 
Support Fund for the PA dollar for dollar, this has not been 
enough for the PA to end their practice of rewarding 
terrorists. According to PA financial statements, from calendar 
year 2013 to 2016, U.S. budget support has averaged about 13 
percent of the PA's annual external support and 3.5 percent of 
annual PA spending over that time. Clearance revenues, tax and 
customs amounts due to PA that Israel collects on its behalf 
and transfers to it, per a 1994 agreement, over that same 
period, average around 50 percent of annual PA spending.
    Palestinians are among the world's largest per capita 
recipients of international foreign aid. Any aid that we give 
to the PA puts money in their coffers that then indirectly 
supports their heinous payouts. It is time that we end funding 
to the PA, and the Taylor Force Act does just that.
    This bill would, beginning in fiscal year 2018 and 
continuing for the five subsequent fiscal years, withhold U.S. 
economic assistance that directly benefits the PA unless the PA 
has taken the following four actions: First, it has taken 
credible steps to end acts of violence against Israelis and 
Americans perpetrated or materially supported by those under PA 
control. Two, it stops payments for acts of terrorism. Three, 
it revokes its laws compensating prisoners who commit acts of 
terrorism based on length of prison sentence or take in 
comparable actions that have the effect of revoking such laws. 
And, fourth, publicly condemns acts of violence and cooperates 
in investigations of such acts.
    The United States taxpayer dollars should never go to 
compensate individuals who commit terrorism, even indirectly. 
The Taylor Force Act will put an end to this practice.
    I would like to also speak, Mr. Chairman, on the resolution 
to impose sanctions with respect to foreign support for 
Palestinian terrorism. Hamas was designated a foreign terrorist 
organization by the State Department on October 8, 1997, and 
named a specially designated global terrorist by the Department 
of Treasury under Executive Order 130224. This act will require 
the President to report on and issue sanctions against foreign 
persons, agencies of foreign states and governments that 
support Hamas.
    Hamas has been intertwined with Iran ideologically, 
politically, and militarily. Qatar has a strategic opportunity 
to sever itself from Hamas and, by extension, Iran, which is a 
state sponsor of terrorism. My amendment here will require the 
administration to assess the extent to which all countries in 
the Gulf Cooperation Council, including Qatar, participate in 
initiatives of the Terrorist Financial Targeting Center. It 
will also require reporting on the extent to which the 
Terrorist Financial Targeting Center has been utilized to 
address financial support for Hamas and the Palestinian Islamic 
Jihad.
    This will ensure that Congress knows Qatar is complying 
with the classified memorandum of understanding Secretary 
Tillerson signed with Qatar this past summer. We must ensure 
that terrorist financing, wherever it comes from, is cut off. 
This bill and my amendment does just that.
    And finally, Mr. Chairman, about religious persecution, 
H.R. 407. It is deeply saddening that we must consider 
resolution condemning religious persecution in 2017, 240 years 
after America's Founders held itself evident truth that people 
can worship how they choose. Religious discrimination is a 
global human rights crisis, and we must speak up when a 
religious group is persecuted for their beliefs.
    This resolution affirms that religious freedom is a 
fundamental right of every individual, and condemns the 
persecution of Christians and other religious minorities in 
regions where worshipping how one chooses is a punishable 
offense.
    And, with that, Mr. Chairman, I yield back the remainder of 
my time.
    Chairman Royce. Mr. Scott Perry. General Scott Perry.
    Mr. Perry. Thank you, Mr. Chairman.
    I just want to echo the adulation and thanks of the other 
members to the bipartisan efforts of the leadership of this 
committee in moving this package of bills forward. And they are 
all good bills and all worthy of individual praise.
    I want to call particular praise to 401, urging the 
outlawing of the dog and cat meat trade and enforce existing 
laws in the trade; House Resolution 407 for the persecution of 
Christians around the world; and specific import on the Taylor 
Force Act.
    And the thing that I lament most about the Taylor Force Act 
and 2712, the Palestinian International Terrorism Support 
Prevention Act, and the 3542, the Hamas Human Shield Prevention 
Act, that it has taken this long for us to deal with these 
issues and get these bills through the committee and to the 
floor. It would be my hope that they would move quickly to the 
floor and pass easily and quickly in the United States Senate.
    And finally, for condemning the ethnic cleansing of the 
Rohingya. And the only thing I lament there, while it is 
appropriate to condemn the ethnic cleansing of the Rohingya and 
call for an end to the attacks, unfortunately, I don't think 
that is going to do much for the fate of the Rohingya. And in 
this case, it is, in my opinion, the duty of the U.N. to 
intervene directly and immediately to stop their persecution.
    So with that, Mr. Chairman, I thank you again for this 
effort and this package of good bills. It is my hope and 
intention that they move to the floor very quickly now and are 
passed. And I appreciate the opportunity to be present for 
this.
    Thank you, Mr. Chairman. I yield.
    Chairman Royce. Thank you.
    We go to Jim Sensenbrenner of Wisconsin.
    Mr. Sensenbrenner. Mr. Chairman, I support all of these 
bills. And unlike my colleagues who said that everything has 
been said and ask for 5 minutes, I will say that everything has 
been said. There is nothing more I can add, and I yield back 
the balance of my time.
    Chairman Royce. Thank you very much, Mr. Sensenbrenner, for 
yielding back.
    Do other members feel the same way?
    Now, who else seeks time?
    Hearing no further requests for recognition, the question 
occurs on the items considered en bloc.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the chair, they ayes have it, and the 
measures considered en bloc are agreed to.
    Without objection, the measures considered en bloc are 
ordered favorably reported, as amended. Staff is directed to 
make any technical and conforming changes, and the chair is 
authorized to seek House consideration under suspension of the 
rules.
    So this concludes our business for today. And, again, I 
want to thank our ranking member, Mr. Engel, and all of our 
committee members for their contributions, their assistance, 
with today's markup.
    The committee stands adjourned.
    [Whereupon, at 11:40 a.m., the committee was adjourned.]

                                     
                                    

                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
